A-l
APPENDIX A
19-2842-cv
Futia v. State of New York
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential
effect. Citation to a summary order filed on or af­
ter January 1, 2007, is permitted and is governed by
Federal Rule of Appellate Procedure 32.1 and this
court’s Local Rule 32.1.1. When citing a summary
ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELEC­
TRONIC DATABASE (WITH THE NOTATION “SUMMARY OR­
DER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 24th day of November, two
thousand twenty.
PRESENT: BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges,
JANE A. RESTANI,
Judge*
* Judge Jane A. Restani, of the United States Court of Inter­
national Trade, sitting by designation.

A-2
■x

ANTHONY FUTIA, JR.,
and ROBERT L. SCHULZ,
Plaintiffs-Appellants,
-v-

19-2842-cv

STATE OF NEW YORK,
ANDREW CUOMO, individually
and in his official capacity
as Governor of the State of
New York, JOHN J. FLANAGAN,
individually and in his former
capacity as Majority Leader of
the New York State Senate,
ANDREA STEWART-COUSINS,
individually and in her former
capacity as Minority Leader of
the New York State Senate,
CARL E. HEASTIE, individually
and in his official capacity as
Speaker of the New York State
Assembly, THOMAS P. DINAPOLI,
in his official capacity as Comptroller
of New York State, and
BRIAN M. KOLB, individually
and in his official capacity as
Minority Leader of the
New York State Assembly,
Defendants-Appellees.
■x

FOR PLAINTIFFS-APPELLANTS:
ROBERT L. SCHULZ, pro se, Queensbury,
New York, and ANTHONY FUTIA, JR.,pro se,
North White Plains, New York.

A-3
FOR DEFENDANTS-APPELLEES:
BRIAN D. GINSBERG, Assistant Solicitor
General (Barbara D. Underwood, Solicitor
General, and Victor Paladino, Senior
Assistant Solicitor General, on the brief),
for Letitia James, Attorney General,
Albany, New York.
Appeal from the United States District Court
for the Northern District of New York (Suddaby, C.J.).
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DE­
CREED that the judgment of the district court is AF­
FIRMED.
Plaintiffs-appellants Anthony Futia, Jr. and Rob­
ert L. Schulz (“Plaintiffs”) appeal the district court’s
judgment, entered August 22, 2019, dismissing their
claims against defendants-appellees State of New York
and several current and former New York state offi­
cials (“Defendants”) for lack of subject matter jurisdic­
tion under Federal Rule of Civil Procedure 12(b)(1),
and for failure to state a claim under Rule 12(b)(6). We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues
on appeal.
Plaintiffs’ federal claims are based on their allega­
tions that Defendants violated the New York Constitu­
tion in decision-making related to setting the state
civics curriculum, allocating grants and tax credits
to a private business, setting government employees’
salaries, and appointing judges. The sum of these

A-4
violations, Plaintiffs allege, denied them a republi­
can form of government in violation of the Guarantee
Clause of the United States Constitution. Plaintiffs
further allege that Defendants’ failure to respond to
their “First Amendment Petition for Redress of Griev­
ances” violated their rights under the Petition Clause
of the First Amendment. They also allege claims under
state law.
“When reviewing the dismissal of a complaint for
lack of subject matter jurisdiction” under Rule 12(b)(1),
“we review factual findings for clear error and legal
conclusions de novo.” Liranzo v. United States, 690 F.3d
78, 84 (2d Cir. 2012). We also review de novo the dis­
missal of a complaint for failure to state a claim under
Rule 12(b)(6). Forest Park Pictures v. Universal Televi­
sion Network, 683 F.3d 424, 429 (2d Cir. 2012). Finally,
we review a district court’s decision declining to exer­
cise supplemental jurisdiction over state law claims for
abuse of discretion. Klein & Co. Futures, Inc. v. Bd. of
Trade of City of New York, 464 F.3d 255, 262 (2d Cir.
2006).
The district court did not err in dismissing Plain­
tiffs’ Guarantee Clause claim for lack of subject matter
jurisdiction because the claim presents nonjusticiable
political questions, such as how the State of New York
allocates tax credits, sets salaries of state employees,
or selects judges. See, e.g.,Rucho v. Common Cause, 139
S.Ct. 2484, 2506 (2019) (“This Court has several times
concluded . . . that the Guarantee Clause does not pro­
vide the basis for a justiciable claim.”). The district
court also did not err in dismissing Plaintiffs’ Petition

A-5
Clause claim for failure to state a claim, because the
right to petition the state does not mean there is a
right to a response. See Minn. State Bd. for Cmty. Colls,
v. Knight, 465 U.S. 271, 285 (1986) (“Nothing in the
First Amendment or in this Court’s case law interpret­
ing it suggests that the right! ] to . . . petition require[s]
government policymakers to listen or respond to indi­
viduals’ communications on public issues.”). Finally,
the district court did not abuse its discretion in declin­
ing to exercise supplemental jurisdiction over the state
law claims.
We have considered Plaintiffs’ remaining argu­
ments and conclude they are without merit. Accord­
ingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

A-6
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ; and
ANTHONY FUTIA, JR,
Plaintiffs,
v.
STATE OF NEW YORK;
ANDREW CUOMO, individually
and in his official capacity as
Governor of the State of New
York; JOHN J. FLANAGAN,
individually and in his former
capacity as Majority Leader
of the New York Senate;
ANDREA-STEWART COUSINS,
individually and in her former
capacity as Minority Leader of
the New York Senate; CARL E.
HEASTIE, individually and in
his official capacity as Speaker
of the New York Assembly;
THOMAS DiNAPOLI, in his
official capacity as Comptroller
of New York State; and BRIAN
KOLB, individually and in his
official capacity as Minority
Leader of the New York Assembly,
Defendants.

l:19-CV-0056
(GTS/TWD)

A-7
APPEARANCES:
ROBERT L. SCHULZ
Plaintiff, Pro Se
2458 Ridge Road
Queensbury, NY 12804
ANTHONY FUTIA, JR.
Plaintiff, Pro Se
24 Custis Avenue
N. White Plains, NY 10603
HON. LETITIA A. JAMES
Attorney General for the
State of New York
Counsel for Defendants
The Capitol
Albany, NY 12224

OF COUNSEL:
CHRISTOPHER LIBERATI-CONANT, ESQ.
GLENN T. SUDDABY, Chief United States District Judge
DECISION and ORDER
Currently before the Court, in this pro se constitu­
tional rights action filed by Robert L. Schulz and
Anthony Futia, Jr. (“Plaintiffs”) against the State of
New York, New York Governor Andrew Cuomo, former
New York Senate Majority Leader John J. Flanagan,
former New York Senate Minority Leader AndreaStewart Cousins, New York Assembly Speaker Carl E.
Heastie, New York Comptroller Thomas DiNapoli,
and New York Assembly Minority Leader Brian Kolb
(“Defendants”) are the following two motions: (1)

A-8
Defendants’ motion to dismiss Plaintiffs’ Complaint
for lack of subject-matter jurisdiction or, in the alter­
native, failure to state a claim; and (2) Plaintiffs’ sec­
ond motion for reconsideration of the Court’s orders
dismissing Plaintiffs’ motion for summary judgment
and denying their first motion for reconsideration.
(Dkt. Nos. 14, 15.) For the reasons set forth below,
Defendants’ motion is granted and Plaintiffs’ motion
is denied as moot.
I.

RELEVANT BACKGROUND
A. Plaintiffs’ Complaint

Generally, in their Complaint, Plaintiffs assert six
claims: (1) Defendants violated Article IV, Section 4
of the United States Constitution (“the Guarantee
Clause”) in that, by their actions, they have threatened
and compromised the constitutional guarantee to a
republican form of government; (2) Defendants vio­
lated portions of the New York State Constitution by
creating a Committee on Legislative and Executive
Compensation because, in doing so, Defendants imper­
missibly transferred the power to make law outside of
the legislature and improperly allowed an increase in
legislative members’ salaries; (3) Defendants violated
portions of the New York State Constitution by lending
money to Amazon as part of a deal they made with the
private company; (4) Defendants have failed to comply
with N.Y. Educ. L. § 801.2 by failing to ensure that
schools in New York State teach children about the
New York State Constitution; (5) Defendants vio­
lated portions of the New York State Constitution by

A-9
allowing Defendant Cuomo to appoint judges to the
Court of Claims who were immediately assigned to po­
sitions as Supreme Court judges without having been
duly elected; and (6) Defendants violated the First
Amendment of the United States Constitution in fail­
ing to respond to Plaintiffs’ “petitions for redress of
grievances” that they served on Defendant Cuomo and
that contained Plaintiffs’ objections to the conduct un­
derlying their claims above. (Dkt. No. 1, at M 60-135
[Pis.’ Compl.].)
B. Parties’ Briefing on Defendants’ Motion
to Dismiss
1. Defendants’ Memorandum of Law
Generally, in their memorandum of law, Defend­
ants make two arguments. (Dkt. No. 14, Attach. 1, at
11-16 [Defs.’ Mem. of Law].) First, Defendants argue
that the Court should dismiss Plaintiffs’ federal claims
for lack of subject-matter jurisdiction for the follow­
ing reasons: (a) Plaintiffs’ claim under the Guarantee
Clause should be dismissed because a challenged
based on that clause has been found to present no jus­
ticiable question, noting in particular that this Court
has previously dismissed a similar challenge by one of
the Plaintiffs in a different lawsuit; and (b) Plaintiffs’
First Amendment claim is frivolous because the First
Amendment does not suggest that a petitioner has any
right to receive a response to his or her petition. {Id. at
11-13.)

A-10
Second, Defendants argue as follows: (a) if the
Court dismisses the above federal claims, the Court ei­
ther cannot or should not exercise supplemental juris­
diction over Plaintiffs’ remaining state law claims;
(b) even if the Court chooses to exercise supplemental
jurisdiction, these claims would necessarily merit dis­
missal based on application of the doctrine of sovereign
immunity, which has not been waived or abrogated in
this instance; and (c) supplemental jurisdiction is not
warranted if the federal claims are dismissed because
this case is still in its early stages and issues of state
law predominate. {Id. at 13-16.)
2. Plaintiffs’ Opposition Memorandum
of Law
In opposition to Defendants’ motion, Plaintiffs
make five arguments. (Dkt. No. 18, at 5-11 [Pis.’ Opp’n
Mem. of Law].) First, Plaintiffs argue that their claim
under the Guarantee Clause is justiciable because it
does not involve a political question. {Id. at 5-7.)
Second, Plaintiffs argue that their First Amend­
ment claim should not be dismissed because the lan­
guage and history of the First Amendment and the
right to petition for redress of grievances suggests that
there exists a right to receive a response to those peti­
tions. {Id. at 7-9.)
Third, Plaintiffs argue that the Court has subjectmatter jurisdiction over their claims pursuant to Fed.
R. Civ. P. 12(b)(1) because their federal claims are mer­
itorious. {Id. at 9-10.)

A-ll
Fourth, Plaintiffs argue that their claims should
not be dismissed because they have stated claims upon
which relief can be granted. {Id. at 10-11.)
Fifth, Plaintiffs argue that the Eleventh Amend­
ment doctrine of sovereign immunity does not bar their
claims because Defendants have avoided their consti­
tutional responsibilities and exhibited wanton and
reckless disregard for those responsibilities. {Id. at 11.)
C. Parties’ Briefing on Plaintiffs’ Second
Motion for Reconsideration
Generally, in their memorandum of law in support
of their second motion for reconsideration, Plaintiffs
argue that the reasons given by the Court for denying
their pre-answer motion for summary judgment as be­
ing premature are erroneous. (Dkt. No. 15, Attach. 2, at
1-10 [Pis.’ Mem. of Law].) More specifically, Plaintiffs
argue that (a) it was clear error for the court to deny
Plaintiffs pre-answer motion for summary judgment
under Fed. R. Civ. P. 56(d) without having received a
Fed. R. Civ. P. 56(d) affidavit from Defendants, (b) it
was clear error of law to deny that motion under Fed.
R. Civ. P. 56(f) without giving notice and a reasonable
time to respond, (c) the Court’s denial of the motion
based on the need to have an answer to be part of the
record and narrow the issues was erroneous because
any response to Plaintiffs’ motion would have served
those same purposes, (d) the Court’s denial of the mo­
tion on its merits violated Plaintiffs’ due process rights
and is in any event erroneous because Defendants

A-12
would not have been able to dispute most of the facts
raised by Plaintiffs, (e) Plaintiffs were prejudiced by
the denial of their motion because the Court will be de­
ciding Defendants’ motion to dismiss without a full un­
derstanding of the undisputed facts, and (f) there is an
appearance of bias based on the undersigned’s “prior
role” in a previous case involving Plaintiff Schulz as a
litigant. (Id.)
II.

GOVERNING LEGAL STANDARDS
A. Legal Standards Governing a Motion
to Dismiss Based on Lack of SubjectMatter Jurisdiction

“It is a fundamental precept that federal courts
are courts of limited jurisdiction.” Owen Equipment &
Erection Co. v. Kroger, 437 U.S. 365, 374, 98 S.Ct. 2396,
57 L.Ed.2d 274 (1978). Generally, a claim may be
properly dismissed for lack of subject-matter jurisdic­
tion where a district court lacks constitutional or stat­
utory power to adjudicate it. Makarova v. U.S., 201 F.3d
110,113 (2d Cir. 2000). A district court may look to ev­
idence outside of the pleadings when resolving a mo­
tion to dismiss for lack of subject-matter jurisdiction.
Makarova, 201 F.3d at 113. The plaintiff bears the bur­
den of proving subject-matter jurisdiction by a prepon­
derance of the evidence. Makarova, 201 F.3d at 113
(citing Malik v. Meissner, 82 F.3d 560, 562 [2d Cir.
1996]). When a court evaluates a motion to dismiss for
lack of subject-matter jurisdiction, all ambiguities
must be resolved and inferences drawn in favor of the
plaintiff. Aurecchione v. Schoolman Transp. Sys., Inc.,

A-13
426 F.3d 635, 638 (2d Cir. 2005) (citing Makarova, 201
F.3d at 113).
B. Legal Standards Governing a Motion to
Dismiss for Failure to State a Claim
Upon Which Relief Can Be Granted
It has long been understood that a dismissal for
failure to state a claim upon which relief can be
granted, pursuant to Fed. R. Civ. P. 12(b)(6), can be
based on one or both of two grounds: (1) a challenge to
the “sufficiency of the pleading” under Fed. R. Civ. P.
8(a)(2); or (2) a challenge to the legal cognizability of
the claim. Jackson v. Onondaga Cnty., 549 F. Supp.2d
204, 211 nn. 15-16 (N.D.N.Y. 2008) (McAvoy, J.) (adopt­
ing Report-Recommendation on de novo review).
Because such dismissals are often based on the
first ground, some elaboration regarding that ground
is appropriate. Rule 8(a)(2) of the Federal Rules of Civil
Procedure requires that a pleading contain “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2) [em­
phasis added]. In the Court’s view, this tension be­
tween permitting a “short and plain statement” and
requiring that the statement “show[]” an entitlement
to relief is often at the heart of misunderstandings that
occur regarding the pleading standard established by
Fed. R. Civ. P. 8(a)(2).
On the one hand, the Supreme Court has long
characterized the “short and plain” pleading standard
under Fed. R. Civ. P. 8(a)(2) as “simplified” and “liberal.”

A-14
Jackson, 549 F. Supp. 2d at 212 n.20 (citing Supreme
Court case). On the other hand, the Supreme Court has
held that, by requiring the above-described “showing,”
the pleading standard under Fed. R. Civ. P. 8(a)(2) re­
quires that the pleading contain a statement that
“give[s] the defendant fair notice of what the plaintiff’s
claim is and the grounds upon which it rests.” Jackson,
549 F. Supp. 2d at 212 n.17 (citing Supreme Court
cases) (emphasis added).
The Supreme Court has explained that such fair
notice has the important purpose of “enabl[ing] the ad­
verse party to answer and prepare for trial” and “facil­
itating] a proper decision on the merits” by the court.
Jackson, 549 F. Supp. 2d at 212 n.18 (citing Supreme
Court cases); Rusyniak v. Gensini, 629 F. Supp. 2d 203,
213 & n.32 (N.D.N.Y. 2009) (Suddaby, J.) (citing Second
Circuit cases). For this reason, as one commentator
has correctly observed, the “liberal” notice pleading
standard “has its limits.” 2 Moore’s Federal Practice
§ 12.34[l][b] at 12-61 (3d ed. 2003). For example, nu­
merous Supreme Court and Second Circuit deci­
sions exist holding that a pleading has failed to meet
the “liberal” notice pleading standard. Rusyniak, 629
F. Supp. 2d at 213 n.22 (citing Supreme Court and Sec­
ond Circuit cases); see also Ashcroft u. Iqbal, 129 S. Ct.
1937,1949-52 (2009).
Most notably, in Bell Atlantic Corp. v. Twombly,
the Supreme Court reversed an appellate decision
holding that a complaint had stated an actionable
antitrust claim under 15 U.S.C. § 1. Bell Atlantic Corp.
v. Twombly, 550 U.S. 544 (2007). In doing so, the Court

A-15
“retire [d]” the famous statement by the Court in Con­
ley v. Gibson, 355 U.S. 41, 45-46 (1957), that “a com­
plaint should not be dismissed for failure to state a
claim unless it appears beyond doubt that the plaintiff
can prove no set of facts in support of his claim which
would entitle him to relief.” Twombly, 127 S. Ct. at 56061, 577. Rather than turn on the conceivability of an
actionable claim, the Court clarified, the “fair notice”
standard turns on the plausibility of an actionable
claim. Id. at 555-70. The Court explained that, while
this does not mean that a pleading need “set out in de­
tail the facts upon which [the claim is based],” it does
mean that the pleading must contain at least “some
factual allegation[s].” Id. at 555. More specifically, the
“[f] actual allegations must be enough to raise a right
to relief above the speculative level [to a plausible
level],” assuming (of course) that all the allegations in
the complaint are true. Id.
As for the nature of what is “plausible,” the Su­
preme Court explained that “[a] claim has facial plau­
sibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 129 S. Ct. 1937,1949 (2009). “[Deter­
mining whether a complaint states a plausible claim
for relief .. . [is] a context-specific task that requires
the reviewing court to draw on its judicial experience
and common sense. . . . [W]here the well-pleaded facts
do not permit the court to infer more than the mere
possibility of misconduct, the complaint has alleged—
but it has not show[n]—that the pleader is entitled to

A-16
relief” Iqbal, 129 S. Ct. at 1950 (internal quotation
marks and citations omitted). However, while the plau­
sibility standard “asks for more than a sheer possibil­
ity that a defendant has acted unlawfully” id., it “does
not impose a probability requirement.” Twombly, 550
U.S. at 556.
Because of this requirement of factual allegations
plausibly suggesting an entitlement to relief, “the tenet
that a court must accept as true all of the allegations
contained in the complaint is inapplicable to legal con­
clusions. Threadbare recitals of the elements of a cause
of action, supported by merely conclusory statements,
do not suffice.” Iqbal, 129 S. Ct. at 1949. Similarly, a
pleading that only “tenders naked assertions devoid of
further factual enhancement” will not suffice. Iqbal,
129 S. Ct. at 1949 (internal citations and alterations
omitted). Rule 8 “demands more than an unadorned,
the-defendant-unlawfully-harmed-me accusation.” Id.
(citations omitted).
Finally, a few words are appropriate regarding
what documents are considered when a dismissal for
failure to state a claim is contemplated. Generally,
when contemplating a dismissal pursuant to Fed. R. Civ.
R 12(b)(6) or Fed. R. Civ. P. 12(c), the following matters
outside the four corners of the complaint may be con­
sidered without triggering the standard governing a
motion for summary judgment: (1) documents attached
as an exhibit to the complaint or answer, (2) documents
incorporated by reference in the complaint (and pro­
vided by the parties), (3) documents that, although
not incorporated by reference, are “integral” to the

A-17
complaint, or (4) any matter of which the court can
take judicial notice for the factual background of the
case.1

1 See Fed. R. Civ. P. 10(c) (“A copy of any written instrument
which is an exhibit to a pleading is a part thereof for all pur­
poses.”); L-7 Designs, Inc. v. Old Navy, LLC, No. 10-573, 2011WL
2135734, at *1 (2d Cir. June 1, 2011) (explaining that conversion
from a motion to dismiss for failure to state a claim to a motion
for summary judgment is not necessary under Fed. R. Civ. P.
12 [d] if the “matters outside the pleadings” in consist of [1] docu­
ments attached to the complaint or answer, [2] documents incor­
porated by reference in the complaint (and provided by the
parties), [3] documents that, although not incorporated by refer­
ence, are “integral” to the complaint, or [4] any matter of which
the court can take judicial notice for the factual background of the
case); DiFolco v. MSNBC Cable L.L.C., 622 F.3d 104, 111 (2d Cir.
2010) (explaining that a district court considering a dismissal
pursuant to Fed. R. Civ. 12(b)(6) “may consider the facts alleged
in the complaint, documents attached to the complaint as exhib­
its, and documents incorporated by reference in the com­
plaint. . .. Where a document is not incorporated by reference, the
court may neverless consider it where the complaint relies heavily
upon its terms and effect, thereby rendering the document ‘inte­
gral’ to the complaint. . . . However, even if a document is ‘inte­
gral’ to the complaint, it must be clear on the record that no
dispute exists regarding the authenticity or accuracy of the docu­
ment. It must also be clear that there exist no material disputed
issues of fact regarding the relevance of the document.”) [internal
quotation marks and citations omitted]; Chambers v. Time
Warner, Inc., 282 F.3d 147, 152 (2d Cir. 2009) (“The complaint is
deemed to include any written instrument attached to it as an
exhibit or any statements or documents incorporated in it by ref­
erence.”) (internal quotation marks and citations omitted); Int’l
Audiotext Network, Inc. v. Am. Tel. & Tel. Co., 62 F.3d 69, 72 (2d
Cir. 1995) (per curiam) (“[W]hen a plaintiff chooses not to attach
to the complaint or incorporate by reference a [document] upon
which it solely relies and which is integral to the complaint,” the
court may nevertheless take the document into consideration in

A-18
III. ANALYSIS
A. Whether Plaintiffs’ First Claim Must Be
Dismissed
After careful consideration, the Court answers
this question in the affirmative for the reasons stated
in Defendants’ memorandum of law. (See, supra, Part
I.B.I. of this Decision and Order.) To those reasons, the
Court adds the following analysis.
Although it is “the province and duty of the ju­
dicial department to say what the law is,” there are
instances where “the judicial department has no busi­
ness entertaining the claim of unlawfulness—be­
cause the question is entrusted to one of the political
branches or involves no judicially enforceable rights;”
such a claim “is said to present a ‘political question’
and to be nonjusticiable—outside the courts’ compe­
tence and therefore beyond the courts’ jurisdiction.”
Rucho v. Common Cause, 139 S.Ct. 2484, 2494 (2019).
In Baker v. Carr, the Supreme Court indicated that,
although “the mere fact that the suit seeks protection
of a political right does not mean it presents a political
question,” it had been previously recognized that “if
any department of the United States was empowered
by the Guaranty Clause [to resolve an issue related to
the republican form of government], it was not the ju­
diciary.” Baker, 369 U.S. 186, 220 (1962). In Baker, the
Supreme Court cited numerous examples of their own
deciding [a] defendant’s motion to dismiss, without converting the
proceeding to one for summary judgment.”) (internal quotation
marks and citation omitted).

A-19
past decisions in which they “refused to resort to the
Guaranty Clause ... as the source of a constitutional
standard for invalidating state action,” and explicitly
stated that “the Court has consistently held that a
challenge to state action based on the Guaranty Clause
presents no justiciable question. . . "Baker, 369 U.S. at
223-24 (collecting cases).
Although the Supreme Court has since qualified
that “perhaps not all claims under the Guarantee
Clause present nonjusticiable political questions,” it
does not appear that the Supreme Court has indicated
in what circumstances such claims would be justicia­
ble. New York v. United States, 505 U.S. 144,185 (1992)
(declining to decide whether the claim at issue was jus­
ticiable when disposing of the case on an alternative
ground). Additionally, the Supreme Court has just this
year reaffirmed the general principle that the Guaran­
tee Clause is nonjusticiable. Rucho, 139 S.Ct. at 2506
(noting that “[t]his Court has several times concluded,
however, that the Guarantee Clause does not provide
a basis for a justiciable claim”). Given the current state
of the law and the lack of guidance from the Supreme
Court as to what circumstances might present a justi­
ciable claim under the Guarantee Clause, the Court is
bound to find that Plaintiffs’ claim under the Guaran­
tee Clause related to a denial of a republican form of
government is a nonjusticiable political question. See
Schulz v. New York State Executive Pataki, 960 F. Supp.
568,574-76 (N.D.N.Y. 1997) (McAvoy, C.J.) (engaging in
a lengthy discussion of the relevant law and history,
including New York v. United States, noting that there

A-20
is “scant guidance in determining when the general
rule of nonjusticiability should be abrogated,” and con­
cluding that “[i]n light of the Guarantee Clause’s im­
plicit protection of state governmental processes from
the tyranny of an all-powerful federal sovereign, it
would seem imprudent on the part of the federal judi­
ciary to allow the Clause to be used to challenge a
state’s own lawmaking”). The state of the law has not
been clarified much, if at all, in the intervening years
since this Court decided Schulz and therefore the
Court sees no reason to depart from that logic in this
case.
Consequently, Plaintiffs’ First Claim must be dis­
missed for lack of subject-matter jurisdiction.
B. Whether Plaintiffs’ Sixth Claim Must
Be Dismissed
After careful consideration, the Court answers
this question in the affirmative for the reasons stated
in Defendants’ memorandum of law. (See, supra, Part
I.B.I. of this Decision and Order.) To those reasons, the
Court adds the following analysis.
As discussed above, Plaintiffs’ First Amendment
claim is based on the premise that the First Amend­
ment contains the right not only to petition the govern­
ment for redress of grievances, but also to receive a
response to any such petition. However, Plaintiffs have
failed to cite any case law to support this argument or
its interpretation of historical context, and particularly
to support their argument that the Supreme Court and

A-21
other cases cited by Defendants that state that no re­
sponse is required under the First Amendment are not
applicable in the context presented here. (Dkt. No. 18,
at 7-9 [Pis.’ Opp’n Mem. of Law].)
In Minnesota State Bd. for Community Colleges v.
Knight, 465 U.S. 271 (1984), the Supreme Court stated
that “[n]othing in the First Amendment or this Court’s
case law interpreting it suggests that the rights to
speak, associate, and petition require government pol­
icymakers to listen or respond to individuals’ commu­
nications on public issues.” Knight, 465 U.S. at 283-87.
Cases from other courts also indicate that no right to a
response is contained in the First Amendment. See We
the People Foundation, Inc. u. United States, 485 F.3d
140, 141 (D.C. Cir. 2007) (Kavanaugh, J.) (“Plaintiffs
contend that the First Amendment guarantees a citi­
zen’s right to receive a government response to or offi­
cial consideration of a petition for redress of
grievances. Plaintiffs’s argument fails because, as the
Supreme Court has held, the First Amendment does
not encompass such a right.”) cert, denied 552 U.S.
1102 (2008); Apple v. Glenn, 183 F.3d 477,479 (6th Cir.
1999) (finding that “a citizen’s right to petition the gov­
ernment does not guarantee a response to the petition”
in a context where the plaintiff alleged a First Amend­
ment violation due to the defendant’s failure to answer
letters sent to that defendant by the plaintiff); Kittay
v. Giuliani, 112 F. Supp. 2d 342, 354 (S.D.N.Y. 2000)
(noting that the First Amendment does not “ensure
that an elected official will necessarily act a certain
way or respond in a certain manner to requests from

A-22
his constituents, and dismissing the claim because
plaintiff did not allege that the government’s actions
prevented him from communicating his grievances to
elected officials or otherwise denied his right to access
the courts).
Both We the People and Apple involved conduct
similar to that which Plaintiffs engaged in here: send­
ing petitions to governmental officials outside of any
formal judicial or administrative avenue. Additionally,
We the People involved petitions that were similar in
that those petitions were made to protest what the
plaintiffs saw as the apparent unlawfulness of the gov­
ernment’s actions. Consequently, given the similarities
between the situations and the relatively clear indica­
tion from the Supreme Court in Knight that the First
Amendment does not contain a right to a response to a
petition for redress of grievance, the Court sees no rea­
son for reaching any conclusion different from those in
the above cases.2
Additionally, the Court cannot ignore the fact that
there is no evidence that Plaintiffs were prevented
from petitioning the New York State government for
redress of their grievances based on the simple fact
2 The Court also finds it notable that Plaintiffs are self-pro­
fessed members of a New York branch of the same organization
that was the plaintiff in We the People, and, in fact, Plaintiff
Schulz is listed as the pro se plaintiff in that case. We the People,
485 F.3d at 140. Yet, despite therefore being aware of the D.C.
Circuit’s clear resolution of the very same legal issue now raised
in this case, Plaintiffs have not acknowledged the existence of We
the People anywhere in their papers or in any way attempted to
explain why those legal principles do not also apply here.

A-23
that they were able to file the action that is the basis
of this current motion. After all, it is well-recognized
that access to the courts is a facet of the right to peti­
tion under the First Amendment. See Borough ofBuryea,
Pennsylvania v. Guarnieri, 564 U.S. 379, 387 (2011)
(“The right of access to courts for redress of wrongs is
an aspect of the First Amendment right to petition the
government.”); McDonald v. Smith, 472 U.S. 479, 484
(1985) (“ [F]iling a complaint in court is a form of peti­
tioning activity.”); Alvarado v. Westchester Cnty, 22
F. Supp. 3d 208, 214 (S.D.N.Y. 2014) (“[A]ny claim that
plaintiffs were deprived of their right to petition the
government for redress is belied by the fact of their
bringing this lawsuit.”). Nor have Plaintiffs alleged
that they were denied the right to file any type of state
administrative proceeding, such as an Article 78 pro­
ceeding under New York law. See Gagliardi v. Vill. of
Pawling, 18 F.3d 188,194-95 (2d Cir. 1994) (noting that
the right to “seek administrative and judicial relief”
are protected by the First Amendment, and finding
that an Article 78 proceeding was petitioning conduct
protected under the First Amendment). Therefore, re­
gardless of whether or not Plaintiffs were entitled to
a response to their other petitions under the First
Amendment, Plaintiffs have not shown, and cannot
show, that they have been denied their right to petition
for redress of their alleged grievances merely because
Defendants failed to respond to Plaintiffs’ less formal
mode of petitioning. As such, there has been no consti­
tutional violation.

A-24
For the above reasons, Plaintiff’s Sixth Claim is
dismissed.
C. Whether the Court Should Exercise Sup­
plemental Jurisdiction Over Plaintiffs’
State Law Claims
After careful consideration, the Court answers
this question in the negative for the reasons stated in
Defendants’ memorandum of law. (See, supra, Part
I.B.I. of this Decision and Order.) To those reasons, the
Court adds the following analysis.
Even assuming that this Court has sufficient sub­
ject-matter jurisdiction to possess the discretion to de­
cide whether to exercise supplemental jurisdiction
over Plaintiffs’ remaining state law claims, the Court
declines to exercise any such discretion based on the
fact that all of Plaintiffs’ federal claims have been dis­
missed. See Carlsbad Tech., Inc. u. HIF Bio, Inc., 556
U.S. 635, 639-40 (2009) (“A district court’s decision
whether to exercise [supplemental] jurisdiction after
dismissing every claim over which it had original ju­
risdiction is purely discretionary.”); see also TPTCC
NY, Inc. v. Radiation Therapy Servs., Inc., 453 F. App’x
105, 107 (2d Cir. 2011) (stating that, “[i]n deciding
whether to exercise supplemental jurisdiction, a fed­
eral court should consider and weigh ‘the values of ju­
dicial economy, convenience, fairness, and comity,’ ” and
that “ ‘in the usual case in which all federal-law claims
are eliminated before trial,’ the balance of factors will
weigh in favor of declining to exercise supplemental

A-25
jurisdiction”) (quoting Carnegie-Mellon Uniu. v. Cohill,
484 U.S. 343, 350 & n.7 [1988]).
The Court therefore finds that Plaintiffs’ remain­
ing state law claims should be dismissed without prej­
udice to refiling in state court.
ACCORDINGLY, it is
ORDERED that Defendants’ motion to dismiss
(Dkt. No. 14) is GRANTED: and it is further
ORDERED that Plaintiffs’ second motion for re­
consideration (Dkt. No. 15) is DENIED as moot based
on the dismissal of Plaintiffs’ federal claims and the
Court’s finding that there is no basis to exercise sup­
plemental jurisdiction over their remaining state
claims; and it is further
ORDERED that Plaintiffs’ Complaint is DIS­
MISSED without prejudice to refiling in state court
within the governing limitations period(s).
Dated: August 22, 2019
Syracuse, New York
/s/ Glenn T. Suddaby
Hon. Glenn T. Suddaby
Chief U.S. District Judge

A-26
APPENDIX C
Historical Record Of The Right To Petition
Government For Redress Of Grievances
Plaintiffs’ interpretation of the meaning of the Petition
Clause of the First Amendment is strongly supported
by all of history, from the English Magna Carta to the
American Declaration of Independence and beyond.
There is absolutely nothing in American History or Ju­
risprudence that contradicts Plaintiffs’ interpretation.
The following are the highlights.
Chapter 61 of the Magna Carta (the cradle of Liberty
and Freedom from wrongful government, signed at a
time when King John was sovereign) reads in relevant
part:
61. Since, moreover, for God and the amend­
ment of our kingdom and for the better allay­
ing of the quarrel that has arisen between us
and our barons, we have granted all these con­
cessions, desirous that they should enjoy them
in complete and firm endurance forever, we
give and grant to them the underwritten se­
curity, namely, that the barons choose five and
twenty barons of the kingdom, whomsoever
they will, who shall be bound with all their
might, to observe and hold, and cause to
be observed, the peace and liberties we
have granted and confirmed to them by
this our present Charter, so that if we, or
our justiciar, or our bailiffs or any one of our
officers, shall in anything be at fault towards
anyone, or shall have broken any one of

A-27
the articles of this peace or of this secu­
rity, and the offense be notified to four barons
of the foresaid five and twenty, the said four
barons shall repair to us (or our justiciar, if we
are out of the realm) and, laying the trans­
gression before us, petition to have that
transgression redressed without delay.
And if we shall not have corrected the trans­
gression (or, in the event of our being out of
the realm, if our justiciar shall not have cor­
rected it) within forty days, reckoning from
the time it has been intimated to us (or to our
justiciar, if we should be out of the realm), the
four barons aforesaid shall refer that matter
to the rest of the five and twenty barons, and
those five and twenty barons shall, together
with the community of the whole realm,
distrain and distress us in all possible ways,
namely, by seizing our castles, lands, pos­
sessions, and in any other way they can,
until redress has been obtained as they
deem fit, saving harmless our own person,
and the persons of our queen and children:
and when redress has been obtained,
they shall resume their old relations to­
wards us. ...” (emphasis added by Plaintiffs).
Chapter 61 was a procedural vehicle for enforcing the
rest of the Charter. It spells out the Rights of the Peo­
ple and the obligations of the Government, and the pro­
cedural steps to be taken by the People and the King,
in the event of a violation by the King of any provision
of that Charter: the People were to transmit a Petition
for a Redress of their Grievances; the King had 40
days to respond; if the King failed to respond in 40

A-28
days, the People could non-violently retain their money
or violence could be legally employed against the King
until he Redressed the alleged Grievances.1
The 1689 Declaration of Rights proclaimed, “[I]t is the
Right of the subjects to petition the King, and all com­
mitments and prosecutions for such petitioning is ille­
gal.” This was obviously a basis of the “shall make no
law abridging the right to petition government for a
redress of grievances” provision of our Bill of Rights.
In 1774, the same Congress that went on to adopt the
Declaration of Independence unanimously adopted an
Act in which they gave meaning to the People’s Right
to Petition for Redress of Grievances and the Right of
enforcement as they spoke about the People’s “Great
Rights.” Quoting:
“If money is wanted by rulers who have in any
manner oppressed the People, they may re­
tain it until their grievances are redressed,
and thus peaceably procure relief, without
trusting to despised petitions or disturbing
the public tranquility.” “Continental Congress
To The Inhabitants Of The Province Of Que­
bec.” Journals of the Continental Congress
1774, Journals 1:105-13.
In 1775, just prior to drafting the Declaration of Inde­
pendence, Jefferson gave further meaning to the Peo­
ple’s Right to Petition for Redress of Grievances and
the Right of enforcement. Quoting:
1 See Magna Carta Chapter 61. See also William Sharp
McKechnie, Magna Carta 468-77 (2nd ed. 1914)

A-29.
“The privilege of giving or withholding our
moneys is an important barrier against the
undue exertion of prerogative which if left al­
together without control may be exercised to
our great oppression; and all history shows
how efficacious its intercession for redress of
grievances and reestablishment of rights, and
how improvident would be the surrender of so
powerful a mediator.” Thomas Jefferson: Re­
ply to Lord North, 1775. Papers 1:225.
In 1776, the Declaration of Independence was
adopted by the Continental Congress. The bulk of the
document is a listing of the Grievances the People had
against a Government that had been in place for 150
years. The final Grievance on the list is referred to by
scholars as the “capstone” Grievance. The capstone
Grievance was the ultimate Grievance, the Grievance
that prevented Redress of these other Grievances, the
Grievance that caused the People to non-violently
withdraw their support and allegiance to the Govern­
ment, and the Grievance that eventually justified War
against the King, morally and legally. The Congress
gave further meaning to the People’s Right to Petition
for Redress of Grievances and the Right of enforce­
ment. Quoting the Capstone Grievance:
“In every stage of these Oppressions We have
Petitioned for Redress in the most humble
terms; Our repeated Petitions have been
answered only by repeated injury. A
Prince, whose character is marked by every
act which may define a Tyrant, is thus unfit to
be ithe ruler of a free people. .. . We, therefore

A-30
. . . declare, That these United Colonies . . .
are Absolved from all Allegiance to the British
Crown. . .jDeclaration of Independence, 1776
(emphasis added).
“It cannot be presumed, that any clause in the Consti­
tution is intended to be without effect.” Chief Justice
Marshall in Marbury v. Madison, 5 U.S. (1 Cranch) 139
(1803)
“On every question of the construction of the Constitu­
tion, let us carry ourselves back to the time when the
Constitution was adopted, recollect the spirit mani­
fested in the debates, and instead of trying what mean­
ing may be squeezed out of the text, or invented
against it, conform to the probable one in which it was
passed.” Thomas Jefferson, Letter to William Johnson,
Supreme Court Justice (1823)
From Carter v. Carter Coal Co., 298 U.S. 238 (1936).
“And the Constitution itself is in every real
sense a law-the lawmakers being the people
themselves, in whom under our system all po­
litical power and sovereignty primarily re­
sides, and through whom such power and
sovereignty primarily speaks. It is by that
law, and not otherwise, that the legislative,
executive, and judicial agencies which it cre­
ated exercise such political authority as they
have been permitted to possess. The Consti­
tution speaks for itself in terms so plain that
to misunderstand their import is not ration­
ally possible. ‘We the People of the United
States,’ it says, ‘do ordain and establish this

A-31
Constitution.’ Ordain and establish! These are
definite words of enactment, and without
more would stamp what follows with the dig­
nity and character of law. The framers of the
Constitution, however, were not content to let
the matter rest here, but provided explicitlyThis Constitution, and the Laws of the United
States which shall be made in Pursuance
thereof; . . . shall be the supreme Law of the
Land.’ (Const, art. 6, cl. 2.) The supremacy of
the Constitution as law is thus declared with­
out qualification. That supremacy is absolute;
the supremacy of a statute enacted by Con­
gress is not absolute hut conditioned upon its
being made in pursuance of the Constitution.
And a judicial tribunal, clothed by that instru­
ment with complete judicial power, and, there­
fore, by the very nature of the power, required
to ascertain and apply the law to the facts in
every case or proceeding properly brought for
adjudication, must apply the supreme law
and reject the inferior statute [298 U.S. 238.
297] whenever the two conflict. In the dis­
charge of that duty, the opinion of the law­
makers that a statute passed by them is valid
must be given great weight, Adkins v. Chil­
dren's Hospital, 261 U.S. 525. 544. 43 S.Ct.
394, 24 A.L.R. 1238; but their opinion, or the
court’s opinion, that the statute will prove
greatly or generally beneficial is wholly irrel­
evant to the inquiry. Schechter Poultry Corp. v.
United States, 295 U.S. 495. 549. 550 S., 55
S.Ct. 837, 97 A.L.R. 947.”

A-32
And from Hamilton, Federalist No. 78:
“There is no position which depends on clearer
principles, than that every act of a delegated
authority, contrary to the tenor of the commis­
sion under which it is exercised, is void. No
legislative act, therefore, contrary to the Con­
stitution, can be valid. To deny this, would be
to affirm, that the deputy is greater than his
principal; that the servant is above his mas­
ter; that the representatives of the people are
superior to the people themselves; that men
acting by virtue of powers, may do not only
what their powers do not authorize, they but
what they forbid.
“If it be said that the legislative body are
themselves the constitutional judges of their
own powers, and that the construction they
put upon them is conclusive upon the other
departments, it may be answered, that this
cannot be the natural presumption, where it
is not to be collected from any particular pro­
visions in the Constitution. It is not otherwise
to be supposed, that the Constitution could in­
tend to enable the representatives of the peo­
ple to substitute their WILL to that of their
constituents. It is far more rational to sup­
pose, that the courts were designed to be an
intermediate body between the people and the
legislature, in order, among other things, to
keep the latter within the limits assigned to
their authority. The interpretation of the laws
is the proper and peculiar province of the
courts. A constitution is, in fact, and must be
regarded by the judges, as a fundamental law.

A-33
It therefore belongs to them to ascertain its
meaning, as well as the meaning of any par­
ticular act proceeding from the legislative
body. If there should happen to be an irrecon­
cilable variance between the two, that which
has the superior obligation and validity ought,
of course, to be preferred; or, in other words,
the Constitution ought to be preferred to the
statute, the intention of the people to the in­
tention of their agents.
“Nor does this conclusion by any means sup­
pose a superiority of the judicial to the legis­
lative power. It only supposes that the power
of the people is superior to both; and that
where the will of the legislature, declared in
its statutes, stands in opposition to that of
the people, declared in the Constitution, the
judges ought to be governed by the latter ra­
ther than the former. They ought to regulate
their decisions by the fundamental laws, ra­
ther than by those which are not fundamen­
tal.”
Though the Rights to Popular Sovereignty and its “pro­
tector” Right, the Right of Petition for Redress have be­
come somewhat forgotten, they took shape early on by
Government’s response to Petitions for Redress of
Grievances.2 The Right is not changed by the fact that
2 See A SHORT HISTORY OF THE RIGHT TO PETITION
GOVERNMENT FOR REDRESS OF GRIEVANCES. Stephen A.
Higginson, 96 Yale L.J. 142(November, 1986); “SHALL MAKE
NO LAW ABRIDGING. . .
AN ANALYSIS OF THE NE­
GLECTED, BUT NEARLY ABSOLUTE, RIGHT OF PETITION.
Norman B. Smith. 54 U. Cin. L. Rev. 1153 (1986);“LIBELOUS”

A-34
the Petition Clause lacks an affirmative statement
that Government shall respond to Petitions. To repeat.
“It cannot be presumed, that any clause in the Consti­
tution is intended to be without effect.” Chief Justice
Marshall in Marbury v. Madison, 5 U.S. (1 Cranch) 139
(1803). For instance, the 26th Amendment guarantees
all citizens above the age of 18 the Right to Vote, it does
not contain an affirmative statement that the Govern­
ment shall count the votes.
The Right to Petition is a distinctive, substantive
Right, from which other First Amendment Rights were
derived. The Rights to free speech, press and assem­
bly originated as derivative Rights insofar as they
were necessary to protect the preexisting Right to
Petition. Petitioning, as a way to hold Government
PETITIONS FOR REDRESS OF GRIEVANCES—BAD HISTO­
RIOGRAPHY MAKES WORSE LAW. Eric Schnapper. 74 Iowa L.
Rev. 303 (January 1989):THE BILL OF RIGHTS AS A CONSTI­
TUTION, Akhil Reed Amar. 100 Yale L.J. 1131 (March, 1991);
NOTE: A PETITION CLAUSE ANALYSIS OF SUITS AGAINST
THE GOVERNMENT: IMPLICATIONS FOR RULE 11 SANC­
TIONS, 106 Harv. L. Rev. 1111 (MARCH, 1993); SOVEREIGN
IMMUNITY AND THE RIGHT TO PETITION: TOWARD A
FIRST AMENDMENT RIGHT TO PURSUE JUDICIAL CLAIMS
AGAINST THE GOVERNMENT, James E. Pfander, 91 Nw. U.L.
Rev. 899 (Spring 1997);THE VESTIGIAL CONSTITUTION:
THE HISTORY AND SIGNIFICANCE OF THE RIGHT TO PE­
TITION, Gregory A. Mark, 66 Fordham L. Rev. 2153 (May, 1998):
DOWNSIZING THE RIGHT TO PETITION, Gary Lawson and
Guy Seidman, 93 Nw. U.L. Rev. 739 (Spring 1999); A RIGHT OF
ACCESS TO COURT UNDER THE PETITION CLAUSE OF
THE FIRST AMENDMENT: DEFINING THE RIGHT, Carol Rice
Andrews, 60 Ohio St. L.J. 557 (1999); MOTIVE RESTRICTIONS
ON COURT ACCESS: A FIRST AMENDMENT CHALLENGE,
Carol Rice Andrews, 61 Ohio St. L.J. 665 (2000).

A-35
accountable to natural Rights, originated in England
in the 11th century3 and gained recognition as a Right
in the mid-17th century.4 Free speech Rights first de­
veloped because members of Parliament needed to dis­
cuss freely the Petitions they received.5 Publications
reporting Petitions were the first to receive protection
from the frequent prosecutions against the press for
seditious libel.6 Public meetings to prepare Petitions
led to the Right of Public Assembly.7
The Right to Petition was widely accorded greater
importance than the Rights of free expression. For in­
stance, in the 18th century, the House of Commons, 8
the American Colonies,9 and the first Continental
3 Norman B. Smith. “Shall Make No Law Abridging . . . ”:
Analysis of the Neglected. But Nearly Absolute; Right of Petition,
54 U. CIN. L. REV. 1153, at 1154.
4 See Bill of Rights, 1689, 1 W & M., ch. 2 Sections 5.13
(Eng.), reprinted in 5 THE FOUNDERS’ CONSTITUTION 197
(Philip B. Kurland & Ralph Lerner eds., 1987); 1 WILLIAM
BLACKSTONE, COMMENTARIES 138-39.
5 See David C. Frederick, John Quincy Adams. Slavery, and
the Disappearance of the Right to Petition, 9 LAW & HIST. REV.
113, at 115
6 See Smith, supra n.3, at 1165-67.
7 See Charles E. Rice, Freedom of Petition, in 2 ENCYCLO­
PEDIA OF THE AMERICAN CONSTITUTION 789. (Leonard W.
Levy ed., 1986)
8 See Smith, supra n.3, at 1165.
9 For example, Massachusetts secured the Right to Petition
in its Body of Liberties in 1641, hut freedom of speech and press
did not appear in the official documents until the mid-1700s. See
David A. Anderson, The Origins of the Press Clause, 30 UCLA L.
REV. 455. 463 n.47 (1983).

A-36
Congress10 gave official recognition to the Right to Pe­
tition, but not to the Rights of Free Speech or of the
Press.11
The historical record shows that the Framers and
Ratiflers of the First Amendment also understood the
Petition Right as distinct from the Rights of free ex­
pression. In his original proposed-draft of the Bill of
Rights, Madison listed the Right to Petition and the
Rights to speech and press in two separate sections.12
In addition, a “considerable majority” of Congress de­
feated a motion to strike the assembly provision from
the First Amendment because of the understanding
that all of the rights in the First Amendment were sep­
arate Rights that should be specifically protected.13
Petitioning Government for Redress has played a key
role in the development and enforcement of popular
sovereignty throughout British and American history.14

10 See id. at 464 n.52.
11 Even when England and the American colonies recognized
free speech Rights, petition Rights encompassed freedom from
punishment for petitioning, whereas free speech Rights extended
to freedom from prior restraints. See Frederick, supra n.5, at 11516.
12 See New York Times Co. v. U.S.. 403 U.S. 670, 716 n.2
(1971) (Black, J., concurring). For the full text of Madison’s pro­
posal, see 1 ANNALS OF CONG. 434 (Joseph Gales ed., 1834).
13 See 5 BERNARD SCHWARTZ, THE ROOTS OF THE
BILL OF RIGHTS at 1089-91 (1980).
14 See Don L. Smith, The Right to Petition for Redress of
Grievances: Constitutional Development and Interpretations 10108 (1971) (unpublished Ph.D. dissertation) (Univ. Microforms

A-37
In medieval England, petitioning began as a way for
barons to inform the King of their concerns and to in­
fluence his actions.15 Later, in the 17th century, Parlia­
ment gained the Right to Petition the King.16 This
broadening of participation culminated in the official
recognition of the right of Petition in the People them­
selves.17
The People used this newfound Right to question the
legality of the Government’s actions,18 to present
their views on controversial marters,19 and to de­
mand that the Government, as the creature and

Int’l); K. Smellie, Right to Petition, in 12 ENCYCLOPEDIA OF
THE SOCIAL SCIENCES 98, 98-101 (R.A. Seiligman ed., 1934).
15 The Magna Carta of 1215 guaranteed this Right. See
MAGNA CARTA, ch. 61, reprinted in 5 THE FOUNDERS’ CON­
STITUTION, supra n.4, at 187.
16 See PETITION OF RIGHT chs. 1, 7 (Eng. June 7, 1628),
reprinted in 5 THE FOUNDERS’ CONSTITUTION, supra n.4 at
187-88.
17 In 1669, the House of Commons stated that, “it is an in­
herent right of every commoner in England to prepare and pre­
sent Petitions to the House of Commons in case of grievances, and
the House of Commons to receive the same.” Resolution of the
House of Commons (1669), reprinted in 5 THE FOUNDERS’
CONSTITUTION, supra n.4 at 188-89.
18 For example, in 1688, a group of bishops sent a petition to
James II that accused him of acting illegally. See Smith, supra
n.3, at 1160-62. James II’s attempt to punish the bishops for this
Petition led to the Glorious Revolution and to the enactment of
the Bill of Rights. See Smith, supra n.14 at 41-43.
19 See Smith, supra n.3, at 1165 (describing a Petition re­
garding contested parliamentary elections).

A-38
servant of the People, he responsive to the popular
will20
In the American colonies, disenfranchised groups
used Petitions to seek government accountability for
their concerns and to rectify Government miscon­
duct.21 By the nineteenth century, Petitioning
was described as “essential to ... a free govern­
ment,”22 an inherent feature of a republic23 and a
means of enhancing Government accountability
through the participation of citizens.
Government accountability was understood to in­
clude response to petitions.24 American colonists,
20 In 1701, Daniel Defoe sent a Petition to the House of Com­
mons that accused the House of acting illegally when it incarcer­
ated some previous petitioners. In response to Defoe’s demand for
action, the House released those Petitioners. See Smith, supra
n.3, at 1163-64.
21 See RAYMOND BAILEY, POPULAR INFLUENCE UPON
PUBLIC POLICY: PETITIONING IN EIGHTEENTH-CENTURY
VIRGINIA 43-44 (1979).
22 THOMAS M. COOLEY, TREATISE ON THE CONSTITU­
TIONAL LIMITATIONS WHICH REST UPON THE LEGISLA­
TIVE POWER OF THE STATES OF THE AMERICAN UNION
531 (6th ed. 1890).
23 See CONG. GLOBE, 39th Cong., 1st Session. 1293 (1866)
(statement of Rep. Shellabarger) (declaring petitioning an indis­
pensable Right “without which there is no citizenship” in any
government); JOSEPH STORY, COMMENTARIES ON THE
CONSTITUTION OF THE UNITED STATES 707 (Carolina Aca­
demic Press ed. 1987) (1833) (explaining that the Petition Right
“results from [the] very nature of the structure [of a republican
government]”).
24 See Frederick, supra n.5 at 114-15 (describing the histori­
cal development of the duty of government response to Petitions).

A-39
who exercised their Right to Petition the King
or Parliament,25 expected the Government to re­
ceive and respond to their Petitions.26 The King’s
persistent refusal to answer the colonists’ griev­
ances outraged the colonists and as the “cap­
stone” grievance, was a significant factor that
led to the American Revolution.27
Frustration with the British Government led the
Framers to consider incorporating a people’s right to
“instruct their Representatives” in the First Amend­
ment.28 Members of the First Congress easily defeated
this right-of-instruction proposal.29 Some discretion to
reject petitions that “instructed government.” they rea­
soned, would not undermine Government accountabil­
ity to the People, as long as Congress had a duty to
consider petitions and fully respond to them.30
25 See DECLARATION AND RESOLVES OF THE CONTI­
NENTAL CONGRESS 3 (Am. Col. Oct. 14, 1774). reprinted in 5
THE FOUNDERS’ CONSTITUTION, supra n.4 at 199; DECLA­
RATION OF RIGHTS OF THE STAMP ACT CONGRESS 13
(Am. Col. Oct. 19, 1765), reprinted in id. at 198.
26 See Frederick, supra n.5 at 115-116.
27 See THE DECLARATION OF INDEPENDENCE para. 30
(U.S. July 4,1776), reprinted in 5 THE FOUNDERS CONSTITU­
TION, supra n.4 at 199: Lee A. Strimbeck, The Right to Petition,
55 W. VA. L. REV. 275, 277 (1954).
28 See 5 BERNARD SCHWARTZ, supra n.13, 1091-105.
29 The vote was 10-41 in the House and 2-14 in the Senate.
See id. at 1105, 1148.
30 See 1 ANNALS OF CONG. 733-46 (Joseph Gales ed.,
1789); 5 BERNARD SCHWARTZ, supra n.13, at 1093-94 (stating
that representatives have a duty to inquire into the suggested
measures contained in citizens’ Petitions) (statement of Rep.

A-40
Congress viewed the receipt and serious consideration
of every Petition as an important part of its duties.31
Congress referred Petitions to committees32 and even
created committees to deal with particular types of Pe­
titions.33 Ultimately, most Petitions resulted in either
favorable legislation or an adverse committee report.34
Thus, throughout early Anglo-American history,
general petitioning (as opposed to judicial peti­
tioning) allowed the people a means of direct
political participation that in turn demanded
government response and promoted accountabil­
ity.

Roger Sherman); id. at 1095-96 (stating-that Congress can never
shut its ears to Petitions) (statement of Rep. Elbridge Gerry); id.
at 1096 (arguing that the Right to Petition protects the Right to
bring nonbinding instructions to Congress’s attention) (statement
of Rep. James Madison).
31 See STAFF OF HOUSE COMM. ON ENERGY AND COM­
MERCE, 99111 CONG., 2D SESS., PETITIONS, MEMORIALS
AND OTHER DOCUMENTS SUBMITTED FOR THE CONSID­
ERATION OF CONGRESS, MARCH 4,1789 TO DECEMBER 15,
1975, at 6-9 (Comm. Print 1986) (including a comment by the
press that the principal pan of Congress’s time has been taken
up in the reading and referring Petitions” (quot. omitted)).
32 See Stephen A. Higginson, Note, A Short History of the
Right to Petition the Government for the Redress of Grievances, 96
YALE L. J. 142, at 156.
33 See H.J., 25th Cong., 2d Sess. 647 (1838) (describing how
petitions prompted the appointment of a select committee to con­
sider legislation to abolish dueling).
34 See Higginson, n.32 at 157.

